                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMOMDUM

Case Number: A-09060050                                                                       Page 1 of 1



         We received an allegation from the complainant1concerning the use of unpublished and
         confidential data in an NSF proposal.2 Although the complainant explained she had provided
         the data to the subjects (PI and co-PI), she said she explained that the data were to be used only
         to assist in the selection of what to include in their study, not in the proposal.

         Our review of the proposal revealed that the subjects did use information provided by the
         complainant, but in each case the information was a summary statement, not the actual data,
         clearly referenced the complainant, and stated the actual data were unpublished. Based on the
         evidence, we determined that the subject's actions did not rise to a level of research misconduct.

         This case is closed and no further action will be taken.




ISF OIG Fonn 2 (1 1/02)
